C'OCKLE

2311 Douglas Street Le ga l Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1012

GENERAL ELECTRIC COMPANY,
Petitioner,
v.
UNITED TECHNOLOGIES CORPORATION,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF FRONTIER
COMMUNICATIONS CORPORATION AS AMICUS CURIAE IN SUPPORT OF PETITIONER
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 2533 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 16th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

2D F ,
ein] Aone Q. Loss Onnduawbt, Ohl
Notary Public

Affiant 39620
